No:
IN THE
SUPREME COURT OF THE UNITED STATES

BOBBY MARTIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Bobby martin, through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 20th day of September, 2021, which is the time the
petition for writ of certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 20, 2021

By:

s/Tracy Dreispul
Tracy Dreispul
Assistant Federal Public Defender
Deputy Chief, Appellate Division
150 West Flagler Street, Suite 1700
Miami, Florida 33130-1555
(305) 536-6900

